               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Los Angeles International Service
      Center – International Air Mail
              Records Unit

                        Audit Report




                                              October 26, 2011

Report Number FT-AR-12-001
                                                                         October 26, 2011

                                            Los Angeles International Service Center –
                                                   International Air Mail Records Unit

                                                           Report Number FT-AR-12-001



IMPACT ON:
International mail records processed at        dispatch supporting documentation and
the Los Angeles International Air Mail         provide targeted training to those not
Records Unit (records unit).                   complying, reiterate the requirements for
                                               weekly verification notes audits, and
WHY THE OIG DID THE AUDIT:                     ensure the audits are conducted in
Our objective was to determine whether         accordance with procedures.
the records unit, at the Los Angeles
International Service Center (ISC),            We recommended the district manager,
processes inbound international mail           Los Angeles District, direct the manager
transactions timely and accurately so          Statistical Programs, Los Angeles
that bills to the foreign postal               District, to train all persons responsible
administrations are correct and timely.        for performing the review of SIRVI test
                                               data on the correct way to perform the
WHAT THE OIG FOUND:                            review, reiterate the requirement to
The Los Angeles records unit generally         transmit SIRVI test data at the end of an
processed international mail                   assigned tour, and train additional
transactions timely to ensure the St.          personnel to perform the review and
Louis International Accounting Branch          approval of test data daily.
(accounting branch) timely billed foreign
postal administrations. However, the           WHAT MANAGEMENT SAID:
records unit did not maintain supporting       Management agreed with our findings
documentation, such as manifests or            and recommendations and stated they
verification notes, to help ensure the         will begin a monitoring process to
accounting branch accurately billed            assess compliance with document filing
foreign postal administrations. Also, the      and retention policies and conducted
records unit did not perform a complete        training to address the
weekly audit of verification notes and         recommendations in this report.
management did not perform a
complete review of the System for              AUDITORS’ COMMENT:
International Revenue and Volume               The U.S. Postal Service Office of
Inbound (SIRVI) test data or approve           Inspector General considers
test data daily.                               management’s comments responsive to
                                               the recommendations, and corrective
WHAT THE OIG RECOMMENDED:                      actions taken or planned should resolve
We recommended the plant manager,              the issues identified in this report.
Los Angeles ISC, monitor compliance
with policies for filing and retaining         Link to review the entire report
October 26, 2011

MEMORANDUM FOR:            JOHN W. HOLDEN,
                           PLANT MANAGER, LOS ANGELES INTERNATIONAL
                           SERVICE CENTER

                           EDUARDO H. RUIZ, JR
                           DISTRICT MANAGER, LOS ANGELES DISTRICT

                           SEROTINA ANDRADA
                           MANAGER, STATISTICAL PROGRAMS,
                           LOS ANGELES DISTRICT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Los Angeles International Service
                           Center - International Air Mail Records Unit
                           (Report Number FT-AR-12-001)

This report presents the results of our audit of the Los Angeles International Service
Center – International Air Mail Records Unit (Project Number 11BM002FT002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie K. Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments
cc: Joseph Corbett
    Giselle E. Valera
    Deborah Giannoni-Jackson
    Timothy F. O’Reilly
    Steven R. Phelps
    Robin M. Stewart
    Mary J. Mahnke
    Daniel L. Mastren
    Corporate Audit and Response Management
                                                 Table of Contents

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Records Unit Supporting Documentation Retention ........................................................ 2

Oversight of Verification Notes ........................................................................................ 3

SIRVI Test Review and Approval .................................................................................... 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Statistical Sampling and Projections for Inbound International Letter Post,

Parcel Post, and Express Mail at the Los Angeles ISC ................................................... 9

Appendix C: Management’s Comments ........................................................................ 11
Los Angeles International Service Center -                                                                 FT-AR-12-001
 International Air Mail Records Unit


Introduction

This report presents issues pertaining to inbound international mail at the Los Angeles
International Service Center (ISC) – International Air Mail Records Unit (records unit)
(Project Number 11BM002FT002). We identified these issues during our audit of the
fiscal year (FY) 2011 U.S. Postal Service Financial Statements – St. Louis Information
Technology and Accounting Service Center (Project 11BM002FT001). The objective
was to determine if the records units process inbound international mail transactions
timely and accurately to ensure that the St. Louis International Accounting Branch
(accounting branch) can correctly and timely bill the foreign postal administrations.1
This audit was self-initiated and addressed financial risk. See Appendix A for additional
information about this audit.

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the U.S. Foreign postal administrations pay the U.S. Postal Service for sorting,
dispatching, and delivering inbound international mail at the ISCs. To assist in
streamlining international mail processing, the Postal Service developed the Global
Business System, which is comprised of the Receipt System, Dispatch System, and
International Reconciliation System.2 The International Reconciliation System assesses
all records based on a set of validation rules and assigns a validation status -- pass or
fail -- to each record. One reason records may fail the initial validation status is because
the scan data from the Receipt System does not agree with the electronic data interface
(EDI)3 data received from the foreign postal administrations. To complete the validation
process, clerks must update the system with the most reliable data source in
accordance with the Postal Service procedures and within established timelines. Clerks
sometimes use verification notes 4 and manifests5 as tools in this process.

Foreign postal administrations pay terminal dues6 to the Postal Service for the delivery
of mail to the final U.S. destination. Data from the System for International Revenue and
Volume Inbound (SIRVI)7 provide country-specific volume estimates used to determine
the terminal dues paid to the Postal Service for the delivery of foreign origin incoming
mail. The data also supports regulatory requirements for revenue, pieces, and weight
reporting, as well as cost analysis.

1
  Foreign postal administrations are posts outside the U.S. where mail is sent and received.
2
  The Receipt System captures the initial scan of international mail at the inbound receiving terminal. The Dispatch
System captures the scan of outbound mail. The International Reconciliation System aids the tracking of international
mail records, the identification of issues, and the reconciliation of discrepancies.
3
  Foreign postal administrations can provide EDI data to the Postal Service before mail arrives at the ISCs. EDI
contains dispatch information, including the dispatch date, and is prepopulated into the Receipt System. When the
receiving unit clerk scans the 29-character barcode upon arrival at the ISC, the scan retrieves the EDI data and
matches it with the receiving unit data.
4
  These notes are formal messages between foreign postal administrations to relay information regarding the
exchange of mail, in particular irregularities in the preparation, dispatch, and receipt of mail.
5
  A document used to detail the inbound mail dispatches carried by third parties to the Postal Service for delivery
through our network.
6
  Payment to the Postal Service for a portion of the costs incurred to support, transport, and deliver foreign mail to its
final U.S. address.
7
  SIRVI is one of the data collection systems for international mail that captures pieces and weights from foreign
origin mail entering the U.S..
                                                            1
Los Angeles International Service Center -                                                                 FT-AR-12-001
 International Air Mail Records Unit



Conclusion

The Los Angeles records unit generally processed international mail transactions timely
to ensure the St. Louis accounting branch timely billed foreign postal administrations.
However, the records unit did not maintain supporting documentation, such as
manifests or verification notes, to help ensure the accounting branch accurately billed
foreign postal administrations. Also, the records unit did not always perform a complete
weekly audit of verification notes, and management did not always perform a complete
review of SIRVI test data or review and approve SIRVI tests daily. Such reviews and
approvals are necessary to ensure that country-specific volume estimates used to
determine the terminal dues paid to the Postal Service for the delivery of foreign country
incoming mail are correct.

Records Unit Supporting Documentation Retention

The Los Angeles records unit was not always able to support the international inbound
dispatch data8 provided to the accounting branch for billing. Specifically, the unit was
unable to provide supporting documentation, such as manifests or verification notes, for
15 of the 90 dispatches sampled for Quarters 1 and 2, FY 2011. We are 95-percent
confident that the error rate was at least 10.58 percent for the 12,842 dispatches
included in our universe. See Appendix B for statistical sampling and projection
information. This occurred because the records unit misplaced, misfiled, or did not
request supporting documentation.

The accounting branch uses scanned (SIRVI) data provided by the records unit to
timely bill the foreign postal administrations, but manifests and verification notes provide
the support for accurate billing. While the accounting branch has the ability to bill based
on the scanned data, it needs a manifest or verification note as proof of billing accuracy
if a foreign postal administration questions the amount it is being asked to pay.
Additionally, the SIRVI data helps determine the accuracy of the terminal dues owed,
but without the manifests or verification notes, the Postal Service is not in the position to
effectively negotiate with a foreign postal administration.

The retention period for the supporting documentation is dependent on the mail class
and whether the country settles via EDI. Specifically, for non-exclusion9 countries, the
records unit is required to retain Express Mail® and letter bill supporting documentation
for 30 months after the close of a quarter. Parcel bill supporting documents, for non-
exclusion countries, are to be retained 18 months after the close of a quarter. Retaining
dispatch documentation helps management support quarterly, annual, and
supplemental billing in the event of a dispute with a foreign postal administration.

8
  Inbound dispatch data related to a failed validation status.
9
  The records unit is required to fix failed records for the 170 non-exclusion countries that settle using traditional
Universal Postal Union (UPU) procedures for mail flows. The unit is not required to fix failed records for exclusion
countries because they agree to settle via EDI messaging. One of the UPU’s responsibilities is to establish
international mailing procedures.




                                                            2
Los Angeles International Service Center -                                                           FT-AR-12-001
 International Air Mail Records Unit



In FY 2010, we also reported that the Los Angeles records unit did not properly support
inbound international letter post, Parcel Post ®, and Express Mail® service. In response
to our recommendations, management finalized and communicated standard operating
procedures related to obtaining and retaining Express Mail manifests and began daily
and weekly talks stressing the importance of obtaining and maintaining supporting
documentation for billing inbound international mail.10 These actions have not been
sufficient to address the issue noted. We believe additional oversight and more targeted
training may help address this repeat issue.

Oversight of Verification Notes

The supervisors did not always conduct weekly verification note (notes) audits in
accordance with procedures. Specifically, a past supervisor did not perform the audit for
3 of 6 weeks, and the current supervisor, for 3 of 29 weeks. The supervisors incorrectly
believed they audited the correct number of notes. Additionally, management did not
monitor the supervisor’s performance of these audits to ensure they audited the correct
number of notes weekly. The records unit’s standard operating procedures and a key
Sarbanes-Oxley control11 require supervisors to audit six notes of adjusted mail data
weekly to verify the notes were created and responded to timely. Weekly audits are
important to ensure the communications to the foreign postal administration are
adequate and the accounting branch has the evidence needed to support the billing
settlement process. Further, without adequate monitoring controls, supervisors miss
opportunities to address errors in the clerks’ input of inbound mail data. Detecting errors
through the weekly audit process is a key factor in accurate recording of revenue,
accelerates acceptance of the billing, and enhances cash collection.

Management advised that starting in July 2011, Headquarters, International Accounting,
began monitoring weekly audits to ensure they were conducted in accordance with
Postal Service procedures.

SIRVI Test Review and Approval

Management did not perform a complete review of SIRVI test data or approve SIRVI
test data daily.12 The Postal Service uses SIRVI test data in the billing and collection of
terminal dues paid by foreign postal administrations for the delivery of foreign origin
incoming mail. The Postal Service has identified the review as a key control in financial
reporting. Management was unable to demonstrate the review of SIRVI test data
because they did not receive formal or on-the-job training on how to perform a complete
review of SIRVI test data. Also, the review and approval of SIRVI tests are not

10
   Los Angeles International Service Center – Inbound International Mail (Report Number FT-AR-10-001, dated
October 13, 2009).
11
   International Air Mail Records Units Standard Operating Procedures, May 31, 2011, and, Postal Service Control
Number 114.CA010.
12
                                                       Web Base Unit Review Policy and the Statistical Programs
Management Guide. Management approve the tests so that they may be aggregated into the
with other SIRVI test data.


                                                         3
Los Angeles International Service Center -                                                             FT-AR-12-001
 International Air Mail Records Unit


performed daily because additional personnel are not trained to perform the daily review
and approval when management is not available. In addition, the data collection
technician delayed transmission of SIRVI test data to the            Web Base Unit,13
further contributing to delays in approving SIRVI tests. SIRVI test data that is fully
reviewed and approved daily improves the reporting of accurate country-specific volume
estimates, which contributes to the correct billing, recording, and collection of terminal
dues.

Recommendations

We recommend the plant manager, Los Angeles International Service Center:

1. Monitor International Air Mail Records Unit staff compliance with Global Business
   policies for filing and retaining dispatch supporting documentation, and provide
   targeted training to those that are not complying with the policies.

2. Reiterate the requirements for weekly verification note audits, and ensure they are
   conducted in accordance with standard operating procedures.

We recommend the district manager, Los Angeles District, direct the manager,
Statistical Programs, Los Angeles District, to:

3. Train all persons responsible for performing the completeness and reasonableness
   review of the System for International Revenue Volume Inbound test data on how to
   perform the review and provide periodic updates.

4. Train additional personnel to perform the review and approval of System for
   International Revenue and Volume Inbound test data daily.

5. Reiterate to all data collection technicians to transmit the System for International
   Revenue and Volume Inbound test data at the end of their assigned tour.

Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendations 1 and 2, in early October 2011, management provided training to all
records unit staff to reiterate policies for filing and retaining supporting documentation.
Although management did not address the monitoring aspect of recommendation 1 in
their written comments, subsequent discussions disclosed they plan to perform an audit
of one country from each class of mail twice a month to identify documents that are
missing or were requested. The records unit supervisor will inform employees of
resulting omissions and follow-up to make sure that employees obtained the necessary
documents. Records unit supervisors will also be responsible for providing the ISC
manager with a copy of the audit results, and the ISC manager will then randomly
monitor records unit staff to ensure compliance with Global Business policies. These
13
     The      Web Base Unit serves as a central gathering place of collected data from a district’s data collectors.


                                                         4
Los Angeles International Service Center -                                 FT-AR-12-001
 International Air Mail Records Unit


actions are planned to begin November 4, 2011. Additionally, the records unit
supervisor immediately started performing verification note audits and posting the
results weekly. As of July 2011, Headquarters, International Accounting, began
monitoring weekly audits to ensure they are conducted in accordance with standard
operating procedures.

Regarding recommendations 3, 4, and 5, in late September 2011, management
provided classroom training to data collection staff and supervisors regarding data
collection policies and procedures and reminded the statistical programs manager and
supervisor to follow-up and review transmissions daily.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions taken and
planned should resolve the issues identified in this report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Because management took appropriate action to address
the recommendation, the Postal Service may consider this recommendation closed in
its follow-up tracking system.




                                             5
Los Angeles International Service Center -                                                              FT-AR-12-001
 International Air Mail Records Unit


                                  Appendix A: Additional Information

Background

Inbound international mail is foreign-originating mail destined for delivery in the U.S.
Foreign postal administrations pay the Postal Service for sorting and dispatching
inbound international mail at the ISCs.14 In FY 2010, international revenue for inbound
mail was approximately $352 million. Currently, five records units15 process failed
dispatch records for non-exclusion countries before the data is transmitted from the
International Reconciliation System to the Foreign Post Settlement System and,
subsequently, to the St. Louis International Accounting Branch for billing the appropriate
foreign postal administrations.

When the Receipt System data does not agree with the EDI data, clerks are required to
update the failed dispatch record within established timelines. When a record has failed
or the records unit has not received billing documents, a verification note is created to
request the documentation or note billing changes made by the records unit. The
requested billing documents are used by the records unit as support in the billing
settlement process. Supervisors are responsible for monitoring the failed records
process, which includes the resolution of failed dispatch records, tracking verification
notes,16 and performing audits of these notes.17

Quarterly, the accounting branch submits a request to the Eagan Information
Technology and Accounting Service Center to generate, print, and mail billing reports to
the accounting branch. Annually, the accounting branch prints billing reports when
necessary.

SIRVI captures pieces and weights from foreign origin mail entering the U.S. and
provides volume estimates for use in the determination of terminal dues paid to the
Postal Service. SIRVI tests are conducted by data collection technicians (DCTs) at
international exchange offices that receive foreign origin international mail. DCTs must
immediately upload all completed SIRVI tests to the             Web Base Unit. To ensure
the Postal Service is collecting all revenue due, management is required to perform a
daily review and approve SIRVI tests before they are transmitted to the San Mateo
mainframe for aggregation with the nation’s test.




14
   Six ISCs in New York, Miami, Chicago, Los Angeles, San Francisco, and Honolulu, as well as the New Jersey
Network Distribution Center, process international mail.
15
   The five units are Chicago, Los Angeles, New York, Honolulu, and New Jersey.
16
   To track verification notes, supervisors must complete weekly the VN Volume Report, included on the Postal
Service’s Blue Share. They must indicate the number of notes from foreign postal administrations their clerks worked
and are outstanding according to the age of the note.
17
   Weekly, the supervisor audits six notes of adjusted mail data to verify the accuracy and timeliness of notes created
and responded to in accordance with Universal Postal Union and Postal Service policy. The audit results are posted
on an internal site called the Blue Share.


                                                           6
Los Angeles International Service Center -                                                          FT-AR-12-001
 International Air Mail Records Unit



Objective, Scope, and Methodology

The objective of this portion of the audit is to determine if the records units process
international mail transactions timely and accurately to ensure that the St. Louis
International Accounting Branch can correctly and timely bill the foreign postal
administrations.

This report addresses work performed at the Los Angeles records unit.18 To accomplish
our objective, we traced billing data residing in the Foreign Post Settlement System to
inbound international letter post, Parcel Post, and Express Mail source documents,
verification notes, and International Reconciliation System data. We used a total
unrestricted random sample size of 90 Los Angeles ISC and 60 Miami19 ISC dispatch
records from October 2010 through March 2011. See Appendix B for our statistical
sampling of the letter post, Parcel Post, and Express Mail.

We used the verification note audit log on the Postal Service’s Blue Share to ensure all
weekly audits of notes from October 2010 through June 2011 complied with the records
unit standard operating procedures.

We interviewed management, assessed the             Web Base Unit event logs, and
analyzed the SIRVI test data reports to determine whether management reviewed and
approved SIRVI test data.

We conducted this audit from June through October 2011 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on September 9, 2011, and included their comments
where appropriate.

We relied on computer-generated data from Global Business System and Foreign Post
Settlement System to develop our findings. We assessed the reliability of the data on
these applications by tracing selected information on inbound international mail volumes
to supporting source documents, verification notes, and other system data. We
determined that the data were sufficiently reliable for the purposes of this report.




18
   Separate reports will be issued for audit work performed at the Chicago and New York ISCs.
19
   Management consolidated the Miami ISC records unit operations into the Los Angeles records unit operations,
effective January 1, 2011.


                                                        7
Los Angeles International Service Center -                                             FT-AR-12-001
 International Air Mail Records Unit


Prior Audit Coverage

                                               Final
                               Report         Report      Monetary
     Report Title              Number          Date        Impact          Report Results
 Fiscal Year 2010           FT-AR-11-009     3/31/2011    $0            The Chicago records unit
 Postal Service                                                         supervisor did not review
 Financial Statements                                                   inbound verification notes
 Audit – St. Louis                                                      created by the clerks. No
 Information Technology                                                 recommendations were
 & Accounting Service                                                   made in the report.
 Center
 Los Angeles                FT-AR-10-001     10/13/2009   $163,000      We determined that
 International Service                                                  volume data used to bill
 Center – Inbound                                                       foreign postal
 International Mail                                                     administrations for
                                                                        inbound international
                                                                        letter post, Parcel Post,
                                                                        and Express Mail service
                                                                        was not always accurate
                                                                        and properly supported.
                                                                        Management agreed with
                                                                        our findings and
                                                                        recommendations.
 Miami International        FT-AR-08-012     9/3/2008     $2,084,620    We determined that
 Service Center –                                                       manually entered
 Inbound International                                                  dispatches for inbound
 Mail                                                                   international Express
                                                                        Mail were not always
                                                                        billed to the foreign
                                                                        postal administrations.
                                                                        No recommendations
                                                                        were made in the report.
 New York International     FT-AR-08-005     1/24/2008    $13,700,604   We identified a high
 Service Center –                                                       number of discrepancies
 Inbound International                                                  between supporting
 Mail                                                                   documents and billing
                                                                        data for Express Mail and
                                                                        letter post mail.
                                                                        Management agreed with
                                                                        our finding and
                                                                        recommendations.




                                                 8
Los Angeles International Service Center -                                     FT-AR-12-001
 International Air Mail Records Unit


Appendix B: Statistical Sampling and Projections for Inbound International Letter
         Post, Parcel Post, and Express Mail at the Los Angeles ISC

The objective was to determine whether the records unit processes inbound
international mail transactions timely and accurately to ensure that the St. Louis
International Accounting Branch can correctly and timely bill the foreign postal
administrations.

In support of this objective, we employed a simple random sample for all mail types.
The sample design allowed statistical projection of the number of mail records with
errors.

The audit universe consisted of 21,019 inbound international mail records processed at
the Los Angeles records unit: 8,177 records for the Miami ISC and 12,842 records for
the Los Angeles ISC, for the period October 1, 2010, through March 31, 2011. We used
unrestricted random sampling of records for each ISC. We based our sample sizes on
hypothesis testing sampling theory, which is a type of simple random attribute sampling.
Our sample sizes for the Miami and Los Angeles ISCs are shown as follows.

The Los Angeles records unit audit consisted of the following universe of inbound
dispatches.

                                               Express
                       Total          Parcel     Mail       Empty            Letter
     ISC             Records           Post    Service    Receptacles         Post
 Los Angeles          12,842          2,761     4,397         14             5,670
 Miami                 8,177          1,778     3,684          9             2,706
 Totals               21,019          4,539     8,081         23             8,376

We pulled random samples of 90 records of inbound dispatches for the Los Angeles
ISC and 60 records for the Miami ISC. Following are the details regarding the samples.

                                               Express
                     Sample           Parcel     Mail       Empty            Letter
     ISC              Size             Post    Service    Receptacles         Post
 Los Angeles            90              18        30          0                42
 Miami                  60              19        26          0                15
 Totals                150              37        56          0                57




                                               9
Los Angeles International Service Center -                                    FT-AR-12-001
 International Air Mail Records Unit


Evaluation of Sample – Statistical Projections of the Sample Data

Based on the sample results, the Miami ISC had an acceptable error rate. We found
that the Los Angeles ISC was not always able to support the international inbound
dispatch data, and we are 95-percent confident that the error rate was at least 10.58
percent.

                                                                  Minimum Error
                                             Sample   Number           Rate
           ISC               Universe         Size    of Errors    (Percentage)
 Miami                         8,177           60         0             N/A
 Los Angeles                  12,842           90        15           10.58%
N/A means not applicable.




                                                10
Los Angeles International Service Center -                      FT-AR-12-001
 International Air Mail Records Unit



                            Appendix C: Management’s Comments




                                             11
Los Angeles International Service Center -        FT-AR-12-001
 International Air Mail Records Unit




                                             12
Los Angeles International Service Center -        FT-AR-12-001
 International Air Mail Records Unit




                                             13
Los Angeles International Service Center -        FT-AR-12-001
 International Air Mail Records Unit




                                             14
Los Angeles International Service Center -        FT-AR-12-001
 International Air Mail Records Unit




                                             15
